UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Office of the General Counsel

February 19, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First St. N.E.
Washington, D.C. 20543
Re: No. 19-914, Credit Bureau Center, LLC v. Federal Trade Commission
Dear Mr. Harris:
The cross-petition for a writ of certiorari in the above-captioned case was filed on January
20, 2020 and placed on the docket on January 22, 2020. The Commission’s response is due on
February 21, 2020.
The Commission respectfully requests, under the Court’s Rule 30.4, a 30-day extension of
the time to file its response. Because 30 days from February 21 is Sunday, March 22, the
requested due date is March 23, 2020.
This extension is requested to complete preparation of the Commission’s response, which
has been delayed due to the heavy press of cases assigned to the attorneys handling this matter.
Sincerely,
/s/ Alden F. Abbott
Alden F. Abbott
General Counsel
cc: Stephen R. Cochell
Counsel of Record for Petitioner
The Cochell Law Firm, P.C.
5850 San Felipe
Houston, TX 77057

